WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-270

Irma Rosas

R.K. Kenzie Corp., et al.
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.

F There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
GMRI, Inc. d/b/a Olive Garden (incorrectly named as Darden Restaurants d/b/a The Oliver Garden)

0 I am a member of the Bar of the Supreme Court of the United States.

ID I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

September 10, 2020

(Type or print) Name

Matthew J. Ruza
0 Mr.

Firm

❑ Ms. 0 Mrs. 0 Miss

Littler Mendelson, P.C.

Address

321 N. Clark Street, Suite 1100

City & State
Phone

Digitally signed by Ruza, Matthew J.
Date: 2020.09.10 10:26:59 -0500'

Ruza, Matthew J.

Chicago, Illinois

312-795-3274

Zip
Email

60654

mruza@littler.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Petitioner Irma Rosas (pro se); counsel for all Respondents

